Department of Homeland Security
   Ofﬁce of Inspector General


     2007 Debris Removal Pilot Programs and Initiatives





OIG-09-16                                       January 2009
                                                                        Office of Inspector General

                                                                        U.S. Department of Homeland Security
                                                                        Washington, DC 20528




                                      January 15, 2009

MEMORANDUM FOR: 	             Nancy Ward
                              Acting Administrator
                              Federal Emergency Management Agency


FROM: 	                       Richard L. Skinner
                              Inspector General

SUBJECT:	                     Management Advisory Report – 2007 Debris Removal
                              Pilot Program and Initiatives (OIG-09-16)

In June 2007, we initiated a review of the Federal Emergency Management Agency’s (FEMA’s)
2007 Debris Removal Pilot Program and Initiatives. In that same month, FEMA announced its
Public Assistance (PA) Pilot Program that, among other things, included a debris removal
component. We met with officials from your Disaster Assistance Directorate and modified our
objective to determine whether the PA pilot program will meet program goals and whether the
program can be adequately evaluated at the end of the pilot program period. This memorandum
advises you of the results of FEMA’s outreach efforts to gain state and local government
participation in this voluntary program.

Title VI of Public Law 109-295, the Post-Katrina Emergency Management Reform Act of 2006,
amended the Robert T. Stafford Disaster Relief and Emergency Assistance Act in Subtitle E, Section
689 and directed FEMA to conduct a PA pilot program to:

   (1) Reduce the costs of federal public assistance provided to state and local governments,

   (2) Increase the flexibility in grant administration, and

   (3) Expedite the provision of assistance to states and local governments.

FEMA implemented its innovative pilot program on June 1, 2007, with new procedures that allowed
states and local governments to voluntarily participate in the program. Under the PA pilot program,
FEMA can: (1) provide grants based on estimates for any large project up to $500,000; (2) allow an
additional 5% federal share of costs for applicants with FEMA-approved debris management plans
and at least two pre-qualified debris removal contractors identified prior to a disaster; (3) allow
applicants to retain the salvage value of recyclable debris; and (4) reimburse straight or regular-time
salaries and benefits of an applicant’s permanently employed staff performing debris-related
activities. The pilot program ended on December 31, 2008. Additionally, Public Law 109-295
requires the Administrator to submit a report to Congress on the effectiveness of the pilot program
no later than March 31, 2009.
FEMA issued a pilot program field guide in August 2007 to supplement earlier program guidance
and provided pilot program briefings at state emergency management conferences, regional and state
training sessions, and Joint Field Offices (JFO). In addition, FEMA staff responded to numerous
questions from applicants regarding the pilot program, and together with state emergency
management agencies, made pilot program documents available on their websites. From June 2007
through October 2007, we visited four regional offices, six states with federally-declared disasters
occurring after June 2007, and several JFOs. We also held meetings with federal, state, and local
government officials to assess FEMA’s effectiveness in encouraging voluntary state and local
government participation in the program.

FEMA demonstrated a commitment to the pilot program by developing guidance and implementing
the program 8 months after the congressional mandate to do so. While FEMA recognized the need
to promote this voluntary program and did so through numerous briefings and training sessions and
by preparing PA pilot program pamphlets and posting information on its website, its outreach efforts
could have been more effective by ensuring that FEMA officials within the FEMA regions and at the
JFOs were more knowledgeable of the program and provided a consistent and unified message to
state and local governments. During our fieldwork, states and local government officials said they
were reluctant to participate in the program because of uncertainties regarding the financial benefits
of voluntary participation. Consequently, at the conclusion of our fieldwork, there was insufficient
institutional knowledge for us to measure FEMA’s success in accomplishing the three goals laid out
by Congress for the pilot program. However, we have ongoing and planned work that will address
PA pilot program execution and benefits available to states and local governments.

We are currently completing a review of FEMA’s Public Assistance Project Management Process.
The objectives of that review are to determine the effectiveness of FEMA’s process for monitoring
PA projects, including the use of project worksheets, and to identify opportunities for improving the
current process, including institutionalizing the PA pilot program. In addition, your Disaster
Assistance Directorate requested an independent review and opinion on the program as they prepare
to evaluate and report to Congress on the results of the program. This review will begin early in FY
2009 and will determine: (1) how well the program was executed; (2) whether the pilot program is
adequately and equitably implemented across FEMA regions and fair to applicants; and (3) best
practices and improvements for program execution in the future.

We trust that our observations on FEMA’s PA pilot program outreach efforts, as well as our ongoing
and planned work, will be of assistance as you move forward to expedite the provision of public
assistance funding to states and local governments. Should you have any questions, please call me,
or your staff may contact Matt Jadacki, Deputy Inspector General, Emergency Management
Oversight, at (202) 254-4100.

cc: 	 Assistant Administrator, Disaster Assistance Directorate, FEMA
      Audit Liaison, FEMA (Job Code: DP7W03)
      Audit Liaison, DHS




                                                  2

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
